Investigation Press Release  Savannah, GA, July 13, 2011 - Savannah Residents Charged With Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
Department of Justice
United States Attorney Edward J. Tarver
Southern District of Georgia
FOR IMMEDIATE RELEASE
07/13/2011
CONTACT: JAMES D. DURHAM
FIRST ASSISTANT UNITED STATES ATTORNEY
(912) 341-7842
Savannah Residents Charged With Student Loan Fraud
SAVANNAH, GA -  MAKARA PRINGLE, 33, MICHAEL PRINGLE, 29, and RENADA GIVENS, 29, all of Savannah, were indicted today by a federal grand jury for their roles in a scheme to defraud the United States of college student loan money.
United States Attorney Edward J. Tarver said, "The defendants, none of whom completed high school, are charged with stealing money from the United States that was meant to put deserving students through college.  It has been said that education is the key that unlocks all doors.  Frauds like these, however, are keys to but one door, a federal prison cell."
The indictment alleges that the defendants, none of whom received a high school diploma or GED, made and caused to be made false statements on federal college student loan applications.  As a result, over $40,000 in student loan and grant money was unlawfully received, most of which was spent by the defendants and others on personal items.
MAKARA and MICHAEL PRINGLE are specifically charged with conspiring to commit financial aid fraud and making false statements to commit that fraud.  RENADA GIVENS is charged with a single count of lying on a federal student loan application.  Each of these crimes carry a maximum sentence of 5 years imprisonment and a $250,000 fine.  Mr. Tarver emphasized that an indictment is only an accusation and is not evidence of guilt.  The defendants are entitled to a fair trial, during which it will be the Government's burden to prove guilt beyond a reasonable doubt.
The indictment arises out of an investigation by the Inspector General's Office of the U.S. Department of Education. Assistant United States Attorney Charlie Bourne is prosecuting the case for the United States.  For additional information, please contact First Assistant United States Attorney James D. Durham at (912) 341-7842.
42-11
Top
Printable view
Last Modified: 07/15/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov